                             

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    EPA Superfund Contract
                    Initiatives and Controls to
                    Reduce Fraud, Waste, and
                    Abuse
                    Report No. 12-P-0360                    March 16, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Janet Kasper
                                                   Michael Petscavage
                                                   Melinda Burks
                                                   David Penman




Abbreviations

CMM           Contracts Management Manual
CO            Contracting Officer
EPA           U.S. Environmental Protection Agency
EPAAR         EPA Acquisition Regulation
FAR           Federal Acquisition Regulation
FMR           Financial Monitoring Review
FY            Fiscal year
H.R.          House of Representatives
IA            Interagency Agreements
IGCE          Independent Government Cost Estimate
MATS          Management Audit Tracking System
OAM           Office of Acquisition Management
OIG           Office of Inspector General
OMB           U.S. Office of Management and Budget
PO            Project Officer
RAC           Remedial Action Contract
RPM           Remedial Program Manager
USACE         U.S. Army Corps of Engineers




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 12-P-0360
                                                                                                           March 16, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Superfund Contract Initiatives and Controls
The U.S. Environmental
                                    to Reduce Fraud, Waste, and Abuse
Protection Agency (EPA)
Office of Inspector General          What We Found
(OIG) conducted this
congressionally required            We identified three EPA initiatives related to Superfund contracting controls:
review to report to the House
and Senate Committees on                    Contracts 2010 Strategy
Appropriations the Agency’s                 Office of Acquisition Management’s Performance Measurement and
current efforts to strengthen                Management Program
Superfund contracting controls              Recovery Act Stewardship Plan
to prevent future waste, fraud,
and abuse.                          In addition to the above initiatives, EPA has other contract internal controls in
                                    place. EPA describes its contracting internal controls in documents such as the
Background                          Contracts Management Manual, EPA Acquisition Handbook, EPA Acquisition
                                    Regulation, and IA Desk Manual. EPA evaluates implementation of internal
Congress enacted the                controls through Office of Management and Budget Circular A-123 reviews.
Comprehensive Environmental
Response, Compensation and          As required by the Committees, we identified 20 OIG audit reports issued to EPA
Liability Act of 1980,              since fiscal year 2005 with recommendations related to Superfund contracting
commonly referred to as             controls. A full listing of those recommendations and EPA’s corrective actions are
Superfund, to address threats to    provided in appendix A. Some of the corrective actions implemented by EPA as a
human health and the                result of our recommendations include:
environment. In the cleanup of
Superfund sites, EPA uses a                 EPA began verifying the timeliness of contractor performance evaluations
variety of instruments, such as              by contracting officers and revised the EPA Acquisition Handbook.
contracts and interagency                   EPA developed a process to ensure adjustment vouchers and monies owed
agreements (IAs). In fiscal year             to EPA are tracked until receipt.
2010, EPA obligated                         EPA revised internal guidance to require a cost-benefit analysis be
$413 million to contracts and                conducted prior to awarding a Cost-Plus-Award-Fee contract.
$244 million to the U.S. Army
Corps of Engineers.                 We noted that one audit report did not have two recommendations entered in the
                                    Agency tracking system, nor were the corrective actions to address the
                                    recommendations entered in the system.
For further information, contact
our Office of Congressional and
                                    We also identified five ongoing OIG audits and two audit projects planned to begin
Public Affairs at (202) 566-2391.   in fiscal year 2012 that impact Superfund contracting controls or EPA contracting
                                    controls in general.
The full report is at:
www.epa.gov/oig/reports/2012/
20120316-12-P-0360.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                         March 16, 2012

MEMORANDUM

SUBJECT:	 EPA Superfund Contract Initiatives and Controls to Reduce
          Fraud, Waste, and Abuse
          Report No. 12-P-0360


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is a final report by the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA). We conducted the assignment based on a requirement from the House
and Senate Committees on Appropriations. The committees required the OIG to report on EPA’s
implementation of OIG recommendations, as well as current efforts, to strengthen Superfund
contracting controls to prevent waste, fraud, and abuse. We do not make any recommendations in
this report, and you are not required to respond to this report.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper at (312) 886-3059 or kasper.janet@epa.gov.
EPA Superfund Contract Initiatives and Controls                                                                              12-P-0360
to Reduce Fraud, Waste, and Abuse


                                   Table of Contents

Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               2     


   2     Current EPA Initiatives Related to Superfund Contract Controls .................                                           4


                 Current Initiatives ........................................................................................       4     

                 Internal Controls Related to Superfund Contracting ....................................                            7


   3     Past Recommendations and Agency Corrective Actions ..............................                                         11 


   4     OIG Audits Currently Being Conducted and Future Plans.............................                                        13 


                 Audits Currently Underway..........................................................................               13 

                 Planned OIG Audits for Fiscal Year 2012....................................................                       14 




Appendices
   A     Summary of Recommendations and Corrective Actions Implemented........                                                     15


   B     Distribution .........................................................................................................    49

                                  Chapter 1

                                  Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this congressionally required review to report to the House and
            Senate Committees on Appropriations the Agency’s current efforts to strengthen
            Superfund contracting controls to prevent future waste, fraud, and abuse.

Background
            On July 19, 2011, the House Committee on Appropriations submitted report
            112-151, to accompany House of Representatives (H.R.) 2584. The Committee
            submitted the report in explanation of the accompanying bill that made
            appropriations for the Department of the Interior, EPA, and related agencies for
            the fiscal year (FY) ending September 30, 2012. The bill provides regular annual
            appropriations for EPA and other federal agencies.

            The report commended EPA for proactively identifying methods to reduce
            contract costs and urged EPA to continue to identify contract efficiencies so that
            more funds could be spent on site remediation and cleanup. However, the report
            also highlighted the Committee’s concerns about whether EPA’s controls for
            Superfund contracts are sufficient given OIG findings of criminal activity and
            kickbacks at the Federal Creosote site in New Jersey. In the 1990s, creosote was
            discovered under a residential neighborhood in Manville, New Jersey. Creosote, a
            mixture of chemicals used to preserve wood products, such as railroad ties, was
            found by EPA to include chemicals that may cause cancer. As of May 2009,
            construction of EPA’s remedies for the site had been completed with total site costs
            equaling almost $340 million. However, a joint investigation by Department of
            Justice Antitrust Division’s New York Field Office, the Internal Revenue Service
            Criminal Investigation, and the EPA OIG uncovered criminal activity at the site.
            Criminal activities included fictitious bids, kickbacks, and inflation of invoices.

            The Committee’s report stated that the OIG should report to the Committee within
            90 days of enactment of the Consolidated Appropriations Act, 2012, concerning
            EPA’s implementation of OIG recommendations, including ongoing efforts to
            tighten contracting controls. The Joint Statement of Managers report, as part of
            H.R. 2055, directed the OIG to report to the House Committee on Appropriations,
            within 90 days of enactment of the Act, on current Agency efforts to strengthen
            Superfund contracting controls to prevent future waste, fraud, and abuse. The Act
            was passed on December 23, 2011.


12-P-0360                                                                                      1
            Congress enacted the Comprehensive Environmental Response, Compensation,
            and Liability Act of 1980, commonly referred to as Superfund, to address threats
            to human health or the environment. The Superfund program uses a variety of
            contracting methods. In FY 2010, EPA had more than 100 active Superfund class
            contracts in place, and obligated $413 million to contracts. As such, it is vital that
            controls are in place to prevent fraud, waste, and abuse. The program also uses
            interagency agreements (IAs) with other federal agencies, notably the U.S. Army
            Corps of Engineers (USACE), and cooperative agreements with state
            governments, to obtain needed services. In FY 2010, EPA obligated $244 to
            USACE. For the Federal Creosote site, EPA used an IA with the USACE to clean
            up the site.

Scope and Methodology
            Due to our limited scope and purpose, as well as the limited time to perform the
            work, we did not conduct our work in accordance with all generally accepted
            government auditing standards issued by the Comptroller General of the United
            States. Specifically, we did not evaluate the effectiveness of management
            controls, determine compliance with laws and regulations, or develop findings
            and recommendations. Further, we did not thoroughly assess the validity and
            reliability of data obtained from the Agency’s Management Audit Tracking
            System (MATS). Our primary source for determining the status of the Agency’s
            corrective actions taken as a result of prior OIG reports was MATS.

            EPA uses MATS to track audit information Agency-wide. EPA Manual 2750
            requires the Agency to enter data in the tracking system, such as management
            decision dates and final action dates. The manual defines resolution as an
            approved management decision and states that a management decision must
            address each of the findings or recommendations in a report. Final action, as
            defined in EPA Manual 2750, is the completion and documentation of all actions
            specified in the management decision. For the Agency to consider an audit closed,
            there must be a management decision that addresses the audit’s recommendations,
            and all corrective actions identified in the management decision must be
            implemented.

            To gather information regarding current Agency efforts to strengthen Superfund
            contracting controls to prevent future waste, fraud, and abuse, we interviewed
            EPA managers in the Office of Acquisition Management (OAM) within the
            Office of Administration and Resources Management, the Office of Solid Waste
            and Emergency Response, the Office of the Chief Financial Officer, and
            Region 10.

            To compile a listing of related recommendations and corrective actions, we
            reviewed OIG-issued audit reports from FY 2007 forward to identify
            recommendations that either directly or indirectly related to Superfund contract
            controls. For those recommendations, we reviewed MATS to identify the status of

12-P-0360                                                                                        2
            the Agency’s corrective actions. We also included one audit from FY 2005 that
            covered Remedial Action Contracts (RAC) because the recommendations in that
            audit are being followed up on in a current OIG audit.

            To compile the current ongoing reviews related to Superfund contracting controls,
            we reviewed OIG management systems to identify objectives and reviews that
            could possibly pertain to the subject. We then contacted OIG managers to verify
            whether the assignments identified were related to Superfund contracting controls.
            To determine future audits related to Superfund contracting controls, we reviewed
            the OIG 2012 annual plan and spoke with OIG managers to ensure that all
            applicable future work related to the subject was identified.




12-P-0360                                                                                   3
                                  Chapter 2

               Current EPA Initiatives Related to 

                 Superfund Contract Controls 

            We identified three current EPA initiatives related to strengthening Superfund
            contracting controls:

                  Contracts 2010 Strategy
                  OAM’s Performance Measurement and Management Program
                  Recovery Act Stewardship Plan

            In addition to the above initiatives, EPA has other contract internal controls in
            place. EPA describes its contracting internal controls in documents such as the
            Contracts Management Manual (CMM), EPA Acquisition Handbook,
            EPA Acquisition Regulation (EPAAR), and IA Desk Manual. EPA evaluates
            implementation of internal controls through Office of Management and Budget
            (OMB) A-123 reviews.

Current Initiatives
            Contracts 2010 Strategy

            Reforming contracting is one of the six performance management strategies
            included in the Obama administration’s Accountable Government Initiative.
            OMB has placed great emphasis on reforming contracting to reduce costs and
            risks and get better results. EPA, like other federal agencies, is tasked with
            examining and reporting its efforts in reducing non-competitive procurements,
            reducing/mitigating high-risk contracting, and finding efficiencies to save costs.

            EPA’s Contracts 2010 Strategy, dated May 24, 2011, sets the framework for
            acquisitions in support of Superfund program activities for the next 10 years.
            The 2010 strategy contains seven goals, incorporating those highlighted in the
            previous Contracts 2000 Strategy and adding others that reflect new program
            directions and heightened government-wide concerns for efficiency and
            procurement process improvements. The following seven goals of the Contracts
            2010 Strategy are to guide the development and implementation of the next round
            of Superfund acquisitions:

                1.	 Balance national consistency with local flexibility
                2.	 Ensure that there is appropriate competition in the contracting process
                3.	 Increase participation of all socio-economic concerns in the Superfund
                    contracting program
                4.	 Implement green policies and procedures


12-P-0360                                                                                        4
                5.	 Identify and implement opportunities and initiatives for process and cost
                    efficiencies
                6.	 Identify the full range of vehicles or instruments available for obtaining
                    services for the Superfund cleanup programs
                7.	 Mitigate high-risk contracting practices.

            Of those seven goals, goals 2, 5, and 7 most represent Agency initiatives to
            strengthen contracting controls:

                	 Ensuring appropriate competition. The intended result of this goal is to
                   achieve an increased level of awareness concerning competition in the
                   contracting process. Contract placement actions should always consider
                   competition. Although in some instances contract competition may not be
                   the best use of Agency resources, sole-source contracting is a special
                   occurrence and must be well documented with the appropriate rationale.

                	 Implementing process and cost efficiencies. The strategy states that one
                   approach is to explore and assess whether appropriate tools are evaluated
                   and implemented, particularly the use of multiple awards, fixed price
                   contracts, and fixed price components of contracts.

                	 Mitigating high-risk contracting. High-risk contracts, as defined by the
                   OMB, are contracts that were awarded without competition or contracts
                   awarded from a solicitation that received only a single bid; cost
                   reimbursement contracts; or time and material type contracts. In July 2009,
                   OMB directed federal agencies to assess their current contract inventory of
                   high-risk contracts and strive to mitigate high-risk contracting practices.
                   The Agency has been working with OMB and its acquisition community to
                   reach its mandated goal of reducing the number of high-risk contracts.
                   When the use of high-risk contracts is deemed necessary and appropriate,
                   the Agency is to take steps to recognize and manage the risks.

            The next step is to develop a detailed plan to identify additional analysis needed
            for strategy implementation and measures to monitor progress in meeting goals of
            the Contracts 2010 Strategy. EPA is currently developing an implementation
            strategy.

            OAM’s Performance Measurement and Management Program

            OAM is implementing the Performance Measurement and Management Program.
            Further, in late 2011, OAM began implementing the related Balanced Scorecard,
            which is a functional component of the program. The purpose of the program is to
            establish a framework under which OAM may ensure that business systems
            adhere to OAM’s mission and vision, and strategy statements follow best business
            management practices and comply with applicable statutes, regulations, and
            contract terms and conditions. Under the Balanced Scorecard the Agency

12-P-0360                                                                                        5
            establishes performance objectives and measures, assigns targets, and takes
            measurements. Formal documented self-assessments and peer reviews are the
            principal data generating and gathering source. Staff report on the status of
            performance to management and the customer; the feedback cycle then drives
            improvement actions as appropriate.

            According to the draft Concept of Operations for the Performance Measurement
            and Management Program, having efficient and effective business processes
            associated with successfully acquiring goods and services is critical to
            accomplishing agency mission and goals while simultaneously complying with
            many rules, regulations, and policies. Internal controls are necessary to protect the
            integrity of federal acquisition programs in a way that ensures the Agency meets
            its fiduciary responsibilities to the public, conducts its business fairly, and
            employs consistent and transparent practices. To assure internal and external
            stakeholders—such as the EPA Administrator, Congress, OMB officials, and the
            public—that these principles are robustly integrated into the EPA Acquisition
            System, it is critical that the Agency has an effective Performance Measurement
            and Management Program. The accomplishment of this initiative recognizes the
            nexus between the Agency’s existing quality assurance program; OMB Circular
            A-123, Management of Internal Controls; and the implementation of best
            business practices.

            EPA’s senior procurement executive is responsible for establishing an effective
            acquisition management system that ensures that quality goods and services are
            obtained at reasonable prices, in a timely fashion, and in accordance with the
            statutory and regulatory requirements and the programmatic needs of the Agency.
            To assist in accomplishing this responsibility, the Balanced Scorecard provides
            the methodology for assessing performance of the EPA’s procurement offices,
            and includes a compliance review component. This component focuses on the
            organization’s ability to comply with system requirements, including laws,
            regulations, terms and conditions of contracts, ethical standards, and good
            business management practices, as appropriate.

            Recovery Act Stewardship Plan

            For IAs and contracts funded by the American Recovery and Reinvestment Act of
            2009, the main control or strategy EPA uses to monitor and mitigate risk in the
            implementation is the Recovery Act Stewardship Plan. Under the plan, EPA
            assessed the risk to management and oversight of Recovery Act funds and
            identified the controls the Agency needed to reduce the risk of fraud, waste, and
            abuse. EPA’s Recovery Act Steering Committee charged the Recovery Act
            Internal Controls Workgroup with monitoring the control activities identified in
            the stewardship plan. The Agency reports the results of this monitoring quarterly.
            In addition, with the help of a consultant, the Office of the Chief Financial Officer
            performed a statistical review of the stewardship plan to enhance all of the
            monitoring efforts to prevent fraud related to Recovery Act funds.

12-P-0360                                                                                       6
Internal Controls Related to Superfund Contracting
            In addition to the above initiatives, EPA has other contract internal controls in
            place. EPA describes its contracting internal controls in documents such as the
            CMM, EPA Acquisition Handbook, EPAAR, and IA Desk Manual. EPA evaluates
            implementation of internal controls through OMB Circular A-123 reviews.

            Contracts Management Manual

            The CMM contains important contracting controls that apply to all Agency
            contracts, including Superfund contracts. These internal controls help to ensure
            prevention of fraud, waste, and abuse, and include the following control areas:

               	 Contracting Officer Warrant Program (Section 1.2). Establishes
                  specific education, training, and experience standards for Agency
                  employees who are authorized to contract for supplies and services on
                  behalf of the Agency.

               	 Oversight of Acquisition Functions (Section 1.2.5.8). Describes
                  provisions for adequate separation of acquisition functions to avoid
                  potential conflicts of interest; standards for management accountability to
                  ensure prevention of fraud, waste, and abuse; and quality assessment plan
                  compliance reviews.

               	 Procedures for Documenting and Handling Organizational Conflicts
                  of Interest (Sections 9.1 and 9.2). Provides guidance on procedures for
                  documenting organizational conflicts of interest decisions that occur prior
                  to contract award, and handling organizational conflicts of interest issues
                  that arise after contract award.

               	 Statements of Work (Section 11.1). Conveys to contracting personnel the
                  fundamental principles of how to prepare a statement of work, defined as
                  the written description of the contractual requirement for supplies or
                  services, and covers the importance of the statement of work and contract
                  types.

               	 Invoice Review Process (Section 11.2). Describes responsibilities,
                  procedures, and instructions for the processing of contract invoices;
                  stipulates the policy to review contract invoices thoroughly for cost
                  reasonableness; and includes roles of the different parties in reviewing
                  contract invoices, along with checklists to be used for invoice review.
                  These controls ensure that costs are allowable, allocable, and reasonable.

               	 Subcontracting Policies and Procedures (Chapter 44). Stipulates 

                  required practices concerning subcontracts. 



12-P-0360                                                                                       7
            EPA Acquisition Handbook

            In addition to the contracting internal controls described in the CMM, the EPA
            Acquisition Handbook also describes important contracting controls that apply to
            all Agency contracts, including:

               	 Training and Certification (Section 1.1). Provides information and
                  guidance on federally mandated education, training, and experience
                  requirements for employees in the acquisition workforce.

               	 Reviews, Concurrences, and Checklists (Section 4.1). Lists the required
                  reviews, concurrences, and approvals in connection with the acquisition
                  process.

               	 Cost Advisory Functions (Section 31.1). Identifies price negotiation
                  procedures that apply to actions requiring a cost analysis.

               	 Protests and Contract Performance (Section 33.2). Provides guidance
                  to improve the quality of Agency determination and findings, and required
                  division director approval when a protest is filed.

               	 Contract Management (Section 42.2). Identifies reporting requirements
                  to ensure that proper contract administration is being performed.

               	 Tracking Contractor Billings (Section 42.3). Ensures that Contracting
                  Officers (COs) take appropriate steps to track contractor billings under
                  cost reimbursement and fixed-rate contracts.

            EPAAR

            The EPAAR, which supplements the Federal Acquisition Regulation (FAR),
            includes guidance and policy ranging from competition requirements to contract
            type. Subpart 1503.5, Contractor Responsibility To Avoid Improper Business
            Practices, details the management controls that must be in place and that the
            contractor must abide by.

            IA Desk Manual

            The IA Desk Manual is one of the documents that contains the basic controls in
            place for Superfund IAs with the USACE. The manual includes IA processing
            instructions, which incorporate EPA Project Officer (PO) and Remedial Project
            Manager (RPM) duties. The EPA PO provides overall management and direction
            over the IA. The PO provides advice and guidance to the prospective users of the
            IA, authorizes assignments under the IA, and maintains management control
            systems in order to know the financial and performance status of the activities
            under the IA. The assignments under the IA are initiated using a work

12-P-0360                                                                                      8
            authorization form. The RPM, On-Scene Coordinator, or other Superfund staff
            member is responsible for overseeing the project’s activities and expenditures.
            The oversight is completed through regular briefings with the USACE, review of
            USACE monthly reports and payment requests, and the resolving of any payment
            disputes.

            The USACE Special Terms and Conditions section of the IA Desk Manual states
            that the USACE agrees to meet the site-specific financial management and
            recordkeeping responsibilities in EPA’s Superfund Financial Management and
            Recordkeeping Guidance for Federal Agencies. The Special Terms and
            Conditions section covers various control activities applicable to all IAs with the
            USACE, including:

                  cost documentation requirements
                  reporting requirements
                  cost recovery
                  cost collection upon cancellation
                  record retention requirements
                  audits
                  final inspection and certification
                  financial close-out
                  procurement
                  equipment disposition
                  minority business utilization
                  project specific conditions
                  resolution of disagreements
                  quality assurance

            The IA Desk Manual states that IA post award monitoring is to be conducted at
            least once every 12 months. POs are responsible for programmatic reviews, and
            IA specialists are responsible for administrative reviews. The review questions
            cover timely submittal of reports, compliance with terms and conditions,
            drawdowns, review of billing, appropriateness of time and funding for completion
            of the project, and unliquidated obligations.

            OMB Circular A-123 Reviews

            For IAs, the main processes used to ensure effective implementation of internal
            controls are the OMB Circular A-123 reviews and self-assessment reviews. The
            latest A-123 audit reviewed a random IA sample, and the areas reviewed included
            ensuring that the completed IA checklist was in the file, proper documentation
            was in the file, the PO was certified, and programmatic and administrative
            baseline reviews were completed as necessary. The results indicated that
            exceptions were insignificant and corrective action was minimal.



12-P-0360                                                                                         9
            The Shared Service Center responsible for IAs conducts self-assessments by
            reviewing a statistically valid representative sample of IAs processed to verify
            sustained compliance with applicable regulations, policies, and procedures. The
            goals of the assessments are that over time there is a reduction in the number of
            findings, increased compliance and consistency, and increased standardization of
            business practices. The latest IA self-assessment was conducted in conjunction
            with the A-123 audit. The purpose of the self-assessment was to review a select
            number of IAs to assess the efficiency of certain aspects of the IA administrative
            procedural process. The self-assessments covered four areas: (1) statutory
            authority; (2) terms and conditions; (3) file content; and (4) close-out. The self-
            assessment results included several positive observations, as well as findings
            resulting in recommendations for follow-up.

            As with IAs, OAM also uses the A-123 reviews to ensure effective
            implementation of internal controls for contracts. The Agency’s latest assurance
            letter covering contracts management stated that the Agency’s acquisition
            functions are being performed in an effective and efficient manner. An entity
            level acquisition assessment recommended that EPA: (1) create formal methods to
            assess how well training programs are meeting the needs of the acquisition
            workforce, (2) establish a formal process for the collection and analysis of human
            capital data for the consideration of human capital decisions in relation to the
            acquisition workforce, and (3) reassess the performance evaluation system to
            align individual activities with organizational goals. Those findings are being
            addressed by OAM workgroups and are included in OAM’s program review
            strategy.




12-P-0360                                                                                     10
                                  Chapter 3

                    Past Recommendations and 

                    Agency Corrective Actions 

            We identified 20 OIG audit reports issued to EPA with recommendations related
            to Superfund contract or IA controls. Of these reports, 19 were issued between
            FY 2007 and the present; the remaining report, issued in FY 2005, was included
            because it is the basis for another relevant audit currently underway.
            Comprehensive summaries of the 20 audit reports issued to EPA, including the
            recommendations and corrective actions, are in appendix A.

            For 15 of the 20 audits, MATS indicated that all corrective actions intended to
            address each report’s recommendations were implemented. For the remaining five
            audits:

               	 Two of the recommendations and the related corrective actions were not
                  entered in MATS for audit report 2005-P-00001 (appendix A,
                  pages 17–19). This audit report is the subject of another audit currently
                  underway and we anticipate issuing those findings in FY 2013.

               	 Audit report 11-P-0362 is still active and the corrective actions for that
                  report are expected to be completed in November 2012 (appendix A,
                  page 45).

               	 The remaining three audit reports were recently issued, in FY 2012, and
                  the corrective actions are to be implemented after a management decision
                  is approved. Those audit reports are 12-4-0295, 12-P-0311, and 12-P-0320
                  (appendix A, pages 46–48).

            Many of the audit report recommendations required actions to strengthen key
            internal controls, such as EPA’s CMM and Acquisition Handbook, as well as
            IA documentation. Some of the corrective actions that EPA implemented as a
            result of our recommendations were:

                 	 EPA established mechanisms to distribute the financial monitoring
                    review (FMR) reports to COs and POs impacted by the reviews.

                 	 EPA evaluated the resources used to manage contracts for remedial
                    cleanup of Superfund sites. The report contained recommendations for
                    the Agency to consider during the Contracts 2010 implementation phase.

                 	 EPA issued guidance requiring stronger cost-effectiveness justifications
                    in IA decision memorandums submitted by program offices.


12-P-0360                                                                                      11
            	 EPA began verifying the timeliness of contractor performance
               evaluations by COs and revised the EPA Acquisition Handbook to
               incorporate contractor past performance evaluation reviews as an
               oversight activity.

            	 EPA developed a process to ensure adjustment vouchers and monies
               owed to EPA are tracked until receipt.

            	 EPA revised internal guidance, such as the CMM, to require a cost-
               benefit analysis be conducted prior to awarding a Cost-Plus-Award-Fee
               contract and to require work assignment managers, POs, COs, and
               Performance Evaluation Board members to explicitly document the
               basis for award-fee decisions.




12-P-0360                                                                          12
                                       Chapter 4

               OIG Audits Currently Being Conducted 

                         and Future Plans 

                The FY 2012 OIG annual plan identifies mandated and selected assignment topics
                continuing from FY 2011 and assignments scheduled to commence during
                FY 2012. Currently, there are five ongoing audits and two planned audits for
                FY 2012 that are related to Superfund contracting controls.

Audits Currently Underway
                We identified five ongoing audits that are related to Superfund contracting
                controls or impact contracting controls in general. Table 1 notes the audits and the
                objectives for each.

Table 1: Ongoing OIG Audits
 Audit Title                  Objectives
 Superfund Remedial            Has EPA implemented the recommendations from the December 2004
 Action Contracts               OIG audit Response Action Contracts: Structure and Administration
                                Need Improvement, and has it resulted in an increase in the use of
                                fixed price contracting?
                               Has fixed price contracting achieved the anticipated cost savings or
                                other benefits associated with fixed price contracting vehicles?
 EPA Efforts in Response      Determine whether:
 to the President’s Savings    EPA’s efforts to identify and realize savings have been effective.
 Initiative                    EPA savings reported to the Office of Administration and Resources
                                 Management were accurate and complete.
 Controls over Time and       Determine whether:
 Materials Contracts           EPA process/procedures require verification that the contractor
                                 personnel have the qualifications/credentials specified in the contract.
                               Assess whether the implementation of that process is effective.
                               Determine if EPA received the level of services that it paid for.
 Review of EPA’s Regional     Determine whether:
 Contract Management           The EPA contract review process requires verification that the
 (Time and Materials)            contractor personnel have the qualifications/credentials specified in the
 (EPA Regional Contract          contract.
 EPS90804)                     EPA received the level of services that it paid for.
 American Recovery and        Determine whether:
 Reinvestment Act Site         The contractor and its subcontractors complied with selected
 Visit of Diversion Ditch        requirements under the American Recovery and Reinvestment Act of
 Repair Project at the Gilt      2009
 Edge Mine Superfund Site      The contractor’s procurement of its subcontractor complied with federal
                                 requirements.
Source: OIG analysis



12-P-0360                                                                                               13
Planned OIG Audits for Fiscal Year 2012
                We identified two planned audit projects that are related to Superfund contracting
                controls or impact contracting controls in general. Table 2 notes the audit projects
                and the objectives for each.

Table 2: Planned OIG Audits
 Audit Title                                  Objectives
 Unliquidated Obligations for Grants and       Did the EPA office complete its review of unliquidated
 Interagency Agreements                         obligations as required in FY 2011?
                                               Was there adequate documentation to support the
                                                decision to retain obligated amounts?
 Audits of Superfund Contractors              The objectives of the audits will include determining
                                              whether contractors complied with selected federal
                                              requirements.
Source: OIG analysis




12-P-0360                                                                                             14
                                                                                      Appendix A

                Summary of Recommendations and 

                 Corrective Actions Implemented 

Our primary source for determining the status of the Agency’s corrective actions taken as a result
of prior OIG reports was MATS. As noted in chapter 1, EPA Manual 2750 requires the Agency
to enter information on the status of corrective actions into MATS. EPA staff are responsible for
the information in MATS. We did not thoroughly assess the validity and reliability of the data
obtained from MATS. Below is a listing of all the applicable prior reports; summaries of each
report follow. In the summaries, the “Final Action Date” is the date that all corrective actions
were implemented. In some cases the recommendations have been modified from the original
report so that abbreviations are consistent throughout this report.

                                                                                        Summary
 Report Title                                     Report No.      Date Issued           Page No.
 Response Action Contracts: Structure and         2005-P-00001    December 6, 2004         17
 Administration Need Improvement
 Interagency Agreements to Use Other Agencies’    2007-P-00011    March 27, 2007           20
 Contracts Need Additional Oversight
 EPA Can Improve Its Managing of Superfund        2007-P-00021    April 30, 2007           22
 Interagency Agreements with U.S. Army Corps of
 Engineers
 EPA Should Further Limit Use of Cost-Plus-       08-P-0093       February 26, 2008        24
 Award-Fee Contracts
 Over-Billed Labor Charges on START Contract      08-4-0154       May 19, 2008             26
 No. EP-S3-05-02, Tetra Tech EM, Incorporated,
 Boothwyn, Pennsylvania
 EPA Can Improve the Awarding of                  08-P-0186       June 30, 2008            27
 Noncompetitive Contracts
 EPA Should Strengthen Internal Controls over     09-P-0086       January 26, 2009         29
 Interagency Agreement Unliquidated Obligations
 Over-Billed Base Year Labor Charges on START     09-4-0135       April 3, 2009            32
 Contract No. EP-S3-05-02, Tetra Tech EM,
 Incorporated Boothwyn, Pennsylvania
 EPA Should Stop Providing Estimates of Total     09-P-0229       September 9, 2009        33
 Labor Hours to Contractors
 Contractor Invoice Internal Controls Need        09-P-0242       September 23, 2009       34
 Improvement
 EPA Needs to Improve Cost Controls for           10-P-0047       December 16, 2009        36
 Equipment Used during Emergencies
 EPA Can Improve Its Preparation and Use of       10-P-0065       February 16, 2010        38
 Independent Government Cost Estimates for
 Superfund Contracts
 EPA Does Not Always Receive Adjustment           10-P-0075       March 8, 2010            40
 Vouchers from Contractors



12-P-0360                                                                                       15
                                                                                    Summary
 Report Title                                      Report No.   Date Issued         Page No.
 EPA Should Improve Its Contractor Performance     10-R-0113    April 26, 2010         42
 Evaluation Process for Contractors Receiving
 Recovery Act Funds
 EPA’s Terms and Conditions as Well as Process     11-R-0016    November 16, 2010      43
 to Award Recovery Act Interagency Agreements
 Need Improvement
 EPA Can Improve the Use of Financial Monitoring   11-R-0081    January 31, 2011       44
 Reviews for Recovery Act Superfund Contracts
 EPA Needs to Reexamine How It Defines             11-P-0362    July 19, 2011          45
 Payment Its Recapture Audit Program
 Agreed-Upon Procedures Applied to Equipment       12-4-0295    February 27, 2012      46
 Rate Proposals Submitted Under EPA Contract
 EP-S9-11-01 by SFS Chemical Safety, Inc.,
 Emeryville, California
 EPA Can Improve Its Improper Payments             12-P-0311    March 1, 2012          47
 Reporting
 Policies Needed for Proper Use and Management     12-P-0320    March 6, 2012          48
 of Cost-Reimbursement Contracts Based on
 Duncan Hunter Act




12-P-0360                                                                                   16
Report Title: 	      Response Action Contracts: Structure and Administration Need
                     Improvement
Report Number: 	 2005-P-00001
Date Issued: 	       December 6, 2004
Final Action Date: 	 June 20, 2007
Link: 	              http://www.epa.gov/oig/reports/2005/20041206-2005-P-00001.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Develop and implement a plan with milestones for RAC II which:

        a) 	 increases use of Indefinite Delivery/Indefinite Quantity, task order, and site specific
             contracts

        b) 	 increases the use of separate contracting for design, construction, and other remedial
             services

   2-2. 	Conduct a lessons learned analysis of the new Indefinite Delivery/Indefinite Quantity
         contracts as soon as sufficient data is available and develop a plan to share and utilize
         the results of the analysis.

   2-3. 	Stop funding RACs in excess of identified needs.

   2-4. 	Review and revise the recertification policy so as to remove it as an impediment to
         utilization of better contract types. The policy should reflect a balance between the need
         to return funds to Headquarters for redistribution to where the most pressing needs are
         identified, and the degree of flexibility Headquarters is willing to grant to the regions to
         move funds between sites as they now do with work assignments.

   3-1. 	Issue clarifying guidance on “Superfund Policy for Assigning Remedial Work to
         USACE” requiring that:

        a) 	 Past performance of USACE be considered in source selection

        b) 	 The rationale for all source selection decisions be documented

   3-2. 	Develop and implement a plan to evaluate USACE performance and share this 

         information nationwide. 


   4-1. 	Provide National Institute of Health Contractor Performance System training to 

         applicable regional and headquarters staff. 





12-P-0360                                                                                            17
   4-2. 	Develop a method for holding COs accountable for documenting evaluations of
         contractor performance in the National Institute of Health Contractor Performance
         System timely and consistently.

   5-1. 	Complete the proposed cost benefit analysis to determine whether the Remedial Action
         Contract Management Information System should be retained or other more cost
         effective methods should be used to collect RAC financial data.

   5-2. 	If EPA decides to continue using the Remedial Action Contract Management
         Information System, develop and implement a strategy to improve regional utilization
         of the system (or its replacement system if so decided), and require that financial
         information be collected for all RACs.

 Corrective Actions

   2-1. 	EPA did not enter this recommendation or address the corrective action for it in MATS.
         The OIG is currently following up on this recommendation in an ongoing audit. We
         anticipate completing the audit in FY 2013.

   2-2. 	EPA stated that it plans to include the lessons learned as a standing agenda topic on
         monthly conference calls with POs and COs and again at their annual Superfund Senior
         Regional Management and Acquisition Council conference. There was no date entered
         in the corrective action field in MATS.

   2-3. 	EPA agreed to evaluate each region’s funding and, if necessary, meet with the regions
         to discuss the findings of their evaluation. Corrective action was completed on April 30,
         2005.

   2-4. 	EPA agreed to review and clarify the funds recertification policy to describe how this
         policy applies to Indefinite Delivery/Indefinite Quantity type contracts. Corrective
         action was completed on June 20, 2007.

   3-1. 	EPA agreed to review how each region documents its decision as part of the Superfund
         Contracts Regional Review Program. EPA agreed to share the results of these reviews
         and, as a result of the findings, revise or reissue the guidance to address any
         recommended adjustments to documentation. Corrective action was completed on
         November 14, 2006.

   3-2. 	EPA stated an electronic form and a nationwide database were being developed that
         would facilitate the assessment of USACE project management and the performance of
         USACE contractor work for all actively managed projects by USACE. Corrective
         action was completed on December 1, 2005.

   4-1. 	EPA stated it will continue to provide training on the National Institute of Health
         Contractor Performance System at various contract forums. Corrective action was
         completed on July 13, 2005.

12-P-0360                                                                                         18
    4-2. 	EPA did not enter this recommendation or address the corrective action for it in MATS.
          The OIG is currently following up on this recommendation as part of an ongoing audit.
          We anticipate completing the audit in FY 2013.1

    5-1. 	EPA agreed to complete the proposed cost benefit analysis to determine whether the
          Remedial Action Contract Management Information System should be retained or if
          other methods should be used to collect RAC financial data. Corrective action was
          completed on May 17, 2005.

    5-2. 	EPA stated that if the decision at the July Superfund Senior Regional Management and
          Acquisition Council conference is to continue to utilize the Remedial Action Contract
          Management Information System, a strategy for its implementation will be developed.
          Corrective action was completed on January 26, 2006.




1
 A similar recommendation was made in report no. 10-R-0113 and MATS indicates that the corrective action is
completed.


12-P-0360                                                                                                     19
Report Title: 	      Interagency Agreements to Use Other Agencies’ Contracts Need
                     Additional Oversight
Report Number: 	 2007-P-00011
Date Issued: 	       March 27, 2007
Final Action Date: 	 May 10, 2010
Link: 	              http://www.epa.gov/oig/reports/2007/20070327-2007-P-00011.pdf

 Recommendations

We recommended that EPA:

   1. 	 Provide guidance to POs for developing independent government cost estimates (IGCEs)
        or other appropriate cost information, as well as cost reasonableness assessments. These
        assessments should include an analysis of the fees paid to servicing agencies.

   2. 	 Ensure the Grants Administration Division requires that the IA decision memorandum
        better explains why an IA is more cost effective, and include an evaluation of cost
        reasonableness assessments in the Grant Administration Division’s oversight reviews of
        IA management.

   3. 	 Provide guidance to POs for identifying alternatives to the contracting vehicle selected.
        OAM’s CMM addresses market research and should be consulted for guidance.

   4. 	 Strengthen the existing training to include how to develop IGCEs or other appropriate
        cost information, conducting cost reasonableness assessments, and identifying
        alternatives.

   5. 	 Work with program officials to ensure that PO performance standards reflect their
        responsibilities for managing interagency contracts.

   6. 	 Review EPA interagency contracts with Federally Funded Research and Development
        Centers to ensure they were appropriately awarded and develop guidance for program
        offices when considering an interagency contract with these centers.

   7. 	 Emphasize to program offices the importance of maintaining a complete file, and
        providing a copy to the successor PO as required by the recently published EPA Order
        regarding IAs.

 Corrective Actions

   1. 	 EPA stated it provided POs with initial guidance and training on how to develop IGCEs
        and cost reasonableness assessments for IAs that require cost-related determinations
        (e.g., Economy Act IAs). Corrective action was completed on June 1, 2007.

   2. 	 EPA stated that, after consultation with the Agency’s Grants Management Council, it will
        issue guidance requiring stronger cost effectiveness justifications in IA decision

12-P-0360                                                                                           20
      memorandums submitted by program offices. EPA also stated it is enhancing the decision
      memo to require that the programs provide stronger justifications and documentation.
      Additionally, EPA stated it would conduct a comprehensive program review of IAs in
      FY 2008 and share the results with OIG. Corrective action was completed on May 10,
      2010.

   3. 	 EPA agreed to issue guidance requiring program offices to document in their decision
        memorandum that they have consulted with the appropriate EPA contracting office and
        that there is no viable existing Agency contract vehicle that can be used for the work.
        Corrective action was taken on January 1, 2008.

   4. 	 EPA made interim changes to its PO training program. Corrective action was completed
        on September 9, 2008.

   5. 	 EPA stated it would work with senior resource officials to ensure that IA responsibilities
        are referenced, as appropriate, in PO performance agreements as part of the 2008
        Performance Assessment Rating System process. Corrective action was completed on
        January 1, 2008.

   6. 	 EPA agreed to conduct the necessary review, and should the review determine that
        additional guidance beyond that contained in the FAR is required, it would update its IA
        guidance accordingly. Corrective action was completed on September 20, 2007.

   7. 	 EPA stated it continues to emphasize the importance of this requirement in its
        PO training on EPA Order 1610 and considers this corrective action to be ongoing.
        Corrective action was completed on March 31, 2007.




12-P-0360                                                                                         21
Report Title: 	      EPA Can Improve Its Managing of Superfund Interagency Agreements
                     with U.S. Army Corps of Engineers
Report Number: 	 2007-P-00021
Date Issued: 	       April 30, 2007
Final Action Date: 	 April 3, 2008
Link: 	              http://www.epa.gov/oig/reports/2007/20070430-2007-P-00021.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Require that regional offices develop an EPA independent cost estimate for USACE’s
         oversight of IAs.

   2-2. 	Require that regional offices conduct a cost analysis of alternatives when determining
         whether to award an IA and evaluate the analysis against an EPA-developed cost
         estimate.

   2-3. 	Develop a process for holding regional offices and RPMs accountable for complying
         with the Office of Solid Waste and Emergency Response’s 2003 policy for assigning
         remedial work, and the Office of Administration and Resources Management’s 2002
         guidance to document in decision memorandums justifications for IAs based on an
         analysis of alternatives and EPA-developed cost estimates.

   3-1. 	Require USACE to improve the format of its monthly reports so that costs and activities
         correlate and can be clearly understood. RPMs must be able to determine who in
         USACE worked on the IA, for how long, the costs charged EPA, and what work was
         accomplished and remains to be completed.

   3-2. 	Use the Intra-governmental Payment and Collection system to reimburse USACE’s
         in-house costs for work accomplished under IAs.

   3-3. 	Develop a specific plan for using the $2.5 million in Management and Support fees held
         by USACE or require the USACE to refund these fees to EPA, and continue to develop
         plans on an annual basis to address future fees.

   3-4. 	Require future IAs awarded to the USACE to include terms and conditions that will
         enable RPMs to monitor USACE’s cost, quality, and timeliness.

   3-5. 	Develop a policy on how and when the feedback reports will be used as an oversight
         tool to monitor and improve the cost, quality, and timeliness of USACE’s performance.




12-P-0360                                                                                         22
 Corrective Actions

   2-1. 	EPA agreed to revise and reissue its May 2003 policy on assigning work to USACE.
         EPA stated it would require regions to prepare an estimate of anticipated USACE full-
         time equivalent hours/cost, travel, and other direct costs prior to entering into an IA
         with USACE. Corrective action was completed on April 3, 2008.

   2-2. 	EPA agreed to update the May 2003 policy on assigning work to USACE to require
         regions to document their decisions regarding use of USACE versus other mechanisms.
         EPA also stated that it will require an estimate of anticipated USACE full-time
         equivalent hours/cost, travel, and other direct costs be developed before entering into an
         IA with USACE. Corrective action was completed on April 3, 2008.

   2-3. 	EPA agreed to reissue its May 2003 policy on assigning work to USACE and to include
         the following requirements: (1) regions should document all alternatives to the IA they
         considered, why the IA mechanism with the USACE was selected, and why estimated
         USACE staff hours and costs for the proposed work are considered to be reasonable;
         (2) regions will normally consider several selection factors when making these
         decisions; (3) regions will document regional management involvement in these
         decisions; and (4) headquarters will develop a process for holding regional offices and
         RPMs accountable for complying with the new policy and for monitoring regional
         adherence to the reissued policy. Corrective action was completed on April 3, 2008.

   3-1. 	EPA stated that a joint EPA/USACE workgroup was formed that will further assess
         issues associated with monthly reports and invoices, areas for improvement, and
         recommended follow-up actions. Corrective action was completed on April 3, 2008.

   3-2. 	EPA agreed to further assess and consider whether to use the Intra-governmental
         Payment and Collection system to reimburse USACE for payment of staff work
         accomplished under IAs. Corrective action was completed on April 3, 2008.

   3-3. 	EPA stated it has an established plan in place for use of the $2.5 million in Management
         and Support fees held by USACE and will update this plan to address expanded
         technical support activities to be funded with these fees. EPA plans to draw down the
         remaining Management and Support fees, funding work that would normally be paid for
         from Superfund’s annual budget. Corrective action was completed on October 31, 2007.

   3-4. 	EPA stated it would work to review current IAs for terms and conditions relating to
         EPA monitoring of USACE costs, quality, and timeliness; and consider whether to
         recommend development of generic Superfund terms and conditions. Corrective action
         was completed on April 3, 2008.

   3-5. 	EPA agreed to develop a plan for how and when the feedback reports will be used as an
         oversight tool to monitor and improve the cost, quality, and timeliness of USACE
         performance. Corrective action was completed on April 3, 2008.


12-P-0360                                                                                        23
Report Title:        EPA Should Further Limit Use of Cost-Plus-Award-Fee Contracts
Report Number:       08-P-0093
Date Issued:         February 26, 2008
Final Action Date:   May 5, 2009
Link:                http://www.epa.gov/oig/reports/2008/20080226-08-P-0093.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Revise the CMM to require that:

           a cost-benefit analysis be conducted prior to awarding a Cost-Plus-Award-Fee
            contract
           all Cost-Plus-Award-Fee contracts be approved by the CO’s Service Center
            Manager

   2-2. 	Revise CMM to require work assignment managers, POs, COs, and Performance
         Evaluation Board members to explicitly document the basis for decisions made.

   3-1. 	Negotiate with contractors to modify contracts currently providing base fees in excess
         of the 3-percent limit cited by EPAAR 1526.404-273(b) so that the fees no longer
         exceed the 3-percent limit.

   3-2. 	Communicate the 3 percent base fee limit included in EPAAR to all COs and POs using
         Cost-Plus-Award-Fee contracts and verify compliance during Headquarters reviews.

   4-1. 	Analyze alternatives and determine a way to simplify the base fee calculation for Cost-
         Plus-Award-Fee contracts.

   4-2. 	Require the COs for all current Cost-Plus-Award-Fee contracts to review the self-
         evaluation requirement and either eliminate the requirement or provide written
         justification for not eliminating the requirement.

   4-3. 	Recover the $4,801 in overpaid award fees paid to a contractor, or offset this amount
         against future payments.

 Corrective Actions

   2-1. 	EPA agreed to revise the CMM to require that each contract file include documentation
         to show why the particular contract type was selected. When selecting a Cost-Plus-
         Award-Fee contract the CO must apply adequate analytical measures, such as cost
         benefit analysis. Corrective action was completed on April 27, 2009.




12-P-0360                                                                                         24
   2-2. 	EPA agreed to revise the CMM chapters related to the use of Cost-Plus-Award-Fee
         contracts to strengthen the coordination in decision-making and documenting the basis
         for decisions made. Corrective action was completed on April 27, 2009.

   3-1. 	EPA negotiated with contractors to modify contracts providing base fees in excess of
         the 3 percent limit. Corrective action was completed on May 5, 2009.

   3-2. 	EPA issued a Flash Notice which requested that all Agency contracting offices verify
         through their Quality Assessment Plan process that they are complying with the
         3 percent base fee limit for their Cost-Plus-Award-Fee contracts. EPA also stated it
         would send out reminder verification/compliance request notices on an annual basis.
         Corrective action was completed on February 6, 2008.

   4-1. 	EPA agreed to establish a work group to analyze various alternatives and determine if
         there is a way to simplify Cost-Plus-Award-Fee base fee calculations. Corrective action
         was completed on August 19, 2008.

   4-2. 	EPA asked its acquisition community, via a Flash Notice, to determine if self
         evaluations are useful or needed for their particular Cost-Plus-Award-Fee contracts.
         EPA also stated that COs would document their contract files with their findings and
         recommendations. Corrective action was completed on March 14, 2008.

   4-3. 	EPA recovered $4,801 from the contractor in overpaid award fees. Corrective action
         was completed on March 18, 2008.




12-P-0360                                                                                       25
Report Title: 	      Over-Billed Labor Charges on START Contract No. EP-S3-05-02,
                     Tetra Tech EM, Incorporated, Boothwyn, Pennsylvania
Report Number: 	 08-4-0154
Date Issued: 	       May 19, 2008
Final Action Date: 	 January 9, 2009
Link: 	              Due to confidential business information, this report was not made public

 Recommendations

We recommended that EPA:

   1. Disallow $203,588 of Option Year 1 Core Emergency Response Team Labor.

   2. Disallow $9,990 of Option Year 2 Core Emergency Response Team Labor.

   3. Disallow $122,948 of Option Year 1 Fixed-Rate Labor.

   4. Disallow $103,832 of Option Year 1 Subcontract Costs.

 Corrective Actions

A certification memorandum was signed by the CO disallowing costs. Corrective action was
completed on January 9, 2009.




12-P-0360                                                                                    26
Report Title:         EPA Can Improve the Awarding of Noncompetitive Contracts
Report Number:        08-P-0186
Date Issued:          June 30, 2008
Final Action Date:    April 15, 2009
Link:                 http://www.epa.gov/oig/reports/2008/20080630-08-P-0186.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Document in the file for each contract that was not approved at the appropriate level the
         circumstances why the Justification for Other than Full and Open Competition was not
         approved at the appropriate level and the corrective actions taken. Require the
         Competition Advocate to review the documentation for those procurements where the
         Justification for Other than Full and Open Competition required such approval.

   2-2. 	Ensure that internal controls designed to identify Justification for Other than Full and
         Open Competition for sole source procurements over $550,000 requiring the
         Competition Advocate’s approval are developed and properly implemented.

   2-3. 	Revise the Approval Matrix in the Acquisition Handbook to require that contracting
         staff one level above the CO review and approve all Justification for Other than Full
         and Open Competitions to ensure they include required elements.

   2-4. 	Ensure that Quality Assessment Plans include a review of sole source contracts.
         Specifically, the Quality Assessment Plans should ensure that the Justification for Other
         than Full and Open Competition was approved at the appropriate level, that the
         Justification for Other than Full and Open Competition includes all required elements,
         and that synopses of proposed sole source contracts are published when necessary and
         contain all required language.

   2-5. 	Publish an OAM Hot Tips newsletter that reminds contracting staff of the approval
         thresholds for sole source procurements, the importance of using the required checklists
         and ensuring all applicable fields are completed, and the synopses requirements as set
         forth in FAR Part 5.

   3-1. 	Reinforce the requirement that the contract files for sole source procurements include
         evidence of market research when necessary.

   3-2. 	Include in Quality Assessment Plans a review of the market research conducted and
         determine the appropriateness of awarding sole source procurements.




12-P-0360                                                                                           27
 Corrective Actions

   2-1. 	EPA documented in the contract files the circumstances why the Justification for Other
         than Full and Open Competition was not approved at the appropriate level. EPA also
         agreed to have the Agency’s Competition Advocate review the documentation.
         Corrective action was completed on June 30, 2008.

   2-2. 	EPA stated that new controls would include a level above the CO to review pre-award
         documentation to determine if the required signatures have been obtained. Additionally,
         EPA stated that the Agency’s Competition Advocate would develop post-award
         automated reports to identify contract actions requiring the Agency Competition
         Advocate’s signature. Corrective action was completed on December 18, 2008.

   2-3. 	EPA agreed to update the Acquisition Handbook to reflect the level above the CO
         review. Corrective action was completed on December 18, 2008.

   2-4. 	EPA agreed to reinforce to the COs through a Flash Notice that Quality Assessment
         Plans are to include oversight elements related to sole source contracts. Corrective
         action was completed on January 31, 2009.

   2-5. 	EPA agreed to publish in its Hot Tips newsletter a reminder to COs of the approval
         thresholds for sole source procurements, the importance of using required checklists,
         and the synopses requirements set forth in FAR Part 5. Corrective action was completed
         on July 31, 2008.

   3-1. 	EPA agreed to reinforce, through its Hot Tips newsletter, the requirement that sole
         source procurements include evidence of market research when necessary, and to
         include a review of the market research conducted as part of its Quality Assessment
         Plan. Corrective action was completed on June 25, 2008.

   3-2. 	EPA agreed to reinforce the recommendation via Flash Notice and include a review of
         market research efforts in Quality Assessment Plans. Corrective action was completed
         on January 31, 2009.




12-P-0360                                                                                       28
Report Title: 	      EPA Should Strengthen Internal Controls over Interagency Agreement
                     Unliquidated Obligations
Report Number: 	 09-P-0086
Date Issued: 	       January 26, 2009
Final Action Date: 	 September 30, 2010
Link:	               http://www.epa.gov/oig/reports/2009/20090126-09-P-0086.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Direct the Grants and Interagency Agreements Management Division and the Grants
         Management Office to:

        (a) 	 Work with the POs to prepare decrease amendments to deobligate the remaining
              $4.2 million in IA unliquidated obligations identified during our audit and initiate
              close-out action.

        (b) 	 Ensure the IAs with $2.3 million deobligated during the audit are closed out.

   2-2. 	Direct the Office of Grants and Debarment to ensure EPA Order 1610 is consistently
         followed, which includes:

        (a) 	 Grants Management Offices notifying the PO that the IA is expiring before the
              project period ends.

        (b) 	 POs initiating close-out of the project once a project is complete and all applicable
              costs have been billed or paid.

        (c) 	 Grants Management Offices initiating close-out of the IA if the PO has not done so
              after the end of the IA project period.

        (d) 	 Grants Management Offices sending close-out notices to the other agencies, the
              PO, and the Cincinnati Finance Center for IAs where the project period end date is
              greater than 270 days old.

   2-3. 	Direct the Office of Grants and Debarment to work with other agencies on developing
         standard billing practices.

   2-4. 	Direct the Office of Grants and Debarment to work with the Grants Management Office
         and POs to ensure compliance with the existing deobligation and close-out procedures
         under EPA Order 1610. When other agencies do not respond within 90 days to the
         decrease amendments, have Grants and Interagency Agreements Management
         Division/Grants Management Offices send the decrease amendment to the Cincinnati
         Finance Center and instruct it to deobligate the remaining funds and administratively
         and financially close out the IAs.

12-P-0360                                                                                        29
   2-5. 	Follow through with program offices to ensure they develop performance measures that
         are incorporated into PO performance standards which hold the PO accountable for
         their performance in monitoring and timely closing out IAs.

   2-6. 	Ensure the IA data in the Grants Information and Control System and Integrated Grants
         Management System are reconciled.

   2-7. 	Develop procedures that ensure compliance with Office of the Chief Financial Officer
         Policy Announcement 96-04 and require all POs responsible for managing and closing
         out IAs to participate in the unliquidated obligation review and determine the validity
         and necessity of all inactive IAs for current and expired project periods.

   2-8. 	Reformat the unliquidated obligation report in order of IA number and require that the
         Grants and Interagency Agreements Management Division and Grants Management
         Offices forward the report to the PO of record and his/her supervisor, so a single review
         of the entire unliquidated obligation amount can be performed.

 Corrective Actions

   2-1. 	EPA stated it deobligated $3.5 million of the $4.2 million of IA unliquidated obligations
         identified. Additionally, EPA closed out 10 of the 14 agreements, as well as all of the
         IAs with the $2.3 million that were deobligated. EPA stated it would continue to work
         with the responsible project offices and other agencies to deobligate the remaining
         balances and to close out those agreements as soon as possible. Corrective action was
         completed on August 12, 2010.

   2-2. 	EPA instituted a new system that will notify POs when an IA is due to expire in
         60 days. EPA also stated the Agency would adopt measures to help ensure compliance
         with EPA Order 1610 through the implementation of the new Interagency Shared
         Service Center. EPA stated that the Interagency Shared Service Center would provide
         centralized cradle-to-grave IA administration. Corrective action was completed on
         March 20, 2009.

   2-3. 	EPA agreed to develop IA Policy for billing practices. Corrective action was completed
         on June 30, 2009.

   2-4. 	EPA agreed to ensure compliance with EPA Order 1610 as part of the Interagency
         Shared Service Center comprehensive assessments and performance review process.
         Corrective action was completed on May 30, 2009.

   2-5. 	EPA agreed to develop PO performance standards that include measures for holding
         POs accountable for timely monitoring and closing out IAs. Corrective action was
         completed on September 15, 2009.

   2-6. 	EPA stated it completed a reconciliation of IA close-out data between the Grants
         Information and Control System and the Integrated Grants Management System. EPA

12-P-0360                                                                                       30
        also agreed to complete a comparison of additional data elements between the Grants
        Information and Control System and the Integrated Grants Management System records
        to identify further mismatches in the data. Corrective action was completed on June 30,
        2009.

   2-7. 	EPA agreed to issue a memorandum regarding guidance for conducting A-123 internal
         reviews of unliquidated obligations. EPA also agreed to incorporate Policy
         Announcement 96-04, requiring all program offices to conduct annual unliquidated
         obligation reviews into the Resource Management Directive System. Corrective action
         was completed on August 31, 2010.

   2-8. 	The Office of the Chief Financial Officer agreed to provide the unliquidated obligations
         report and assist the Office of Grants and Debarment, as needed, to ensure it has the
         most useful sort. Corrective action was completed on May 5, 2009.




12-P-0360                                                                                      31
Report Title:        Over-Billed Base Year Labor Charges on START Contract No.
                     EP-S3-05-02, Tetra Tech EM, Incorporated Boothwyn, Pennsylvania
Report Number:       09-4-0135
Date Issued:         April 3, 2009
Final Action Date:   December 2, 2010
Link:                Due to confidential business information, this report was not made public

 Recommendations

We recommended that EPA:

   1. Disallow $166,980 of Base Year Core Emergency Response Team Labor.

   2. Disallow $65,491 of Base Year Fixed-Rate Labor.

   3. Disallow $20,618 of Base Year Subcontract Costs.

 Corrective Actions

Region 3 negotiated with Tetra Tech concerning the over-billings and obtained a credit of
$163,327 to be applied to a future invoice. Corrective action was completed on December 2,
2010.




12-P-0360                                                                                    32
Report Title: 	      EPA Should Stop Providing Estimates of Total Labor Hours to
                     Contractors
Report Number: 	 09-P-0229
Date Issued: 	       September 9, 2009
Final Action Date: 	 September 30, 2010
Link:	               http://www.epa.gov/oig/reports/2009/20090909-09-P-0229.pdf

 Recommendations

We recommended that EPA:

   1. 	 Revise EPAAR to eliminate the requirement that EPA include total estimated labor hours
        in work assignments or identify specific circumstances in which the requirement should
        apply.

   2. 	 Communicate to contract management and program staff who prepare and use IGCEs
        when estimates of total labor hours, or any other cost-related estimates, should not be
        provided to contractors prior to receiving the contractor’s proposal.

 Corrective Actions

   1. 	 EPA stated it will revise the EPAAR and published the new guidance for immediate
        implementation and use by contract management and program officials. Corrective action
        was completed on May 25, 2010.

   2. 	 EPA published the new guidance for immediate implementation in a News Flash Notice
        and briefed the change to COs and program managers at the Superfund Senior Regional
        Management and Acquisition Council conference. Corrective action was completed on
        January 13, 2010.




12-P-0360                                                                                         33
Report Title:         Contractor Invoice Internal Controls Need Improvement
Report Number:        09-P-0242
Date Issued:          September 23, 2009
Final Action Date:    September 2, 2010
Link:                 http://www.epa.gov/oig/reports/2009/20090923-09-P-0242.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Modify the CMM to require use of the checklist for invoice reviews the Contracting
         Officer Representatives perform, and to ensure Contracting Officer Representatives
         receive invoices and supporting documentation to assist their reviews.

   2-2. 	Where the progress report and invoice did not cover the same time period, require the
         contractors identified during this review to revise their progress reports to match the
         time period of the invoice.

   2-3. 	Re-evaluate the assignment of the responsibility for math and rate verifications on
         contractor invoices and update the CMM accordingly.

   2-4. 	Require that the COs, as part of the annual invoice review, make certain that the POs
         and Contracting Officer Representatives are:

        a. 	 Implementing changes to the CMM made in response to the audit report.

        b. 	 Requiring contractors to submit invoices and progress reports with matching periods
             of performance.

   3-1. Analyze FMRs to identify findings that are recurring on multiple contracts.

   3-2. Develop a corrective action for addressing the common findings identified in FMRs.

 Corrective Actions

   2-1. 	EPA agreed to modify the CMM to better define documentation needs. EPA indicated
         that the update would include supporting documentation needed from the contractor to
         assist the Contracting Officer Representatives in invoice reviews and the Contracting
         Officer Representatives documentation needed to prove that a sufficient invoice review
         was performed. Corrective action was completed on March 2, 2010.

   2-2. 	EPA stated that contractors would be notified via written letter that progress reports
         must match the time periods of the invoice submitted. EPA also stated that in cases
         where these requirements are not contained in the contract, those contracts would be
         modified. Corrective action was completed on December 18, 2009.


12-P-0360                                                                                          34
   2-3. 	EPA stated the CMM is in compliance with statute and modification to the CMM is not
         appropriate. EPA agreed to prepare a memorandum regarding math and rate verification
         on contractor invoices. Corrective action was completed on September 2, 2010.

   2-4. 	EPA stated that the reviews would be carried out in each CO’s annual review of
         invoices as required by their division’s or region’s Quality Assessment Plan. EPA also
         stated that the Quality Assessment Plan would be modified accordingly in EPA’s
         Acquisition Handbook. Corrective action was completed on April 15, 2010.

   3-1. 	EPA agreed to carry out an analysis to identify findings that are recurring on multiple
         contracts. Corrective action was completed on November 30, 2009.

   3-2. 	EPA stated that Financial Analysis and Oversight Service Center would disseminate all
         FMR reports to all EPA COs managing active contracts with the contractor. EPA
         further stated that the Financial Analysis and Oversight Service Center would present at
         procurement conferences and contractor forums to remind both government and
         contractor personnel of their responsibilities and issues requiring attention. Corrective
         action was completed on December 21, 2009.




12-P-0360                                                                                          35
Report Title: 	      EPA Needs to Improve Cost Controls for Equipment Used during
                     Emergencies
Report Number: 	 10-P-0047
Date Issued: 	       December 16, 2009
Final Action Date: 	 March 31, 2010
Link:	               http://www.epa.gov/oig/reports/2010/20091216-10-P-0047.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Review all equipment charges for responding to Hurricanes Gustav and Ike and identify
         any items where the usage fees exceeded the average purchase price. For these
         equipment items, the CO should negotiate maintenance rates for the equipment and then
         require the contractor to repay any charges in excess of negotiated rates.

   2-2. 	Amend the Emergency and Rapid Response Services contract to require the contractor
         to provide average purchase price information within a specific timeframe.

   2-3. 	Develop a system or process to identify and prevent overcharges for contractor-owned
         equipment for Superfund Technical Assessment and Response Team and emergency
         logistics contracts. If the Removal Cost Management System is not used, provide
         policies and procedures for how to track equipment costs.

   2-4. 	Modify the Removal Cost Management System so that it tracks equipment charges by
         contract rather than just task order.

   3-1. 	Expand the Emergency Contracting Procedures to describe when EPA should convene
         a control review board, what offices should participate in board meetings, and how long
         the board should remain active.

   4-1. 	Notify the OIG when planned milestones for corrective actions are going to be delayed
         more than 6 months.

 Corrective Actions

   2-1. 	EPA agreed to review all equipment charges and use the Removal Cost Management
         System to compare it against contractor records. Corrective action was completed on
         January 13, 2010.

   2-2. 	EPA Region 6 required contractors to provide average purchase price information in the
         Removal Cost Management System within 60 working days after the initial award and
         on each anniversary date of the contract. Corrective action was completed on
         October 20, 2009.



12-P-0360                                                                                      36
   2-3. 	EPA developed the Removal Cost Management System for use by the Superfund
         Technical Assessment and Response Team contractors across the country to track
         equipment usage and costs. Corrective action was completed on December 2, 2010.

   2-4. 	EPA stated the Removal Cost Management System has a data mining feature that
         enables users to query the system and capture individual equipment cost. Training was
         provided on how to query the system at the Superfund PO/CO Conference. Corrective
         action was completed on July 13, 2010.

   3-1. 	EPA’s Acquisition Handbook, Chapter 18, Emergency Contracting Procedures, was
         expanded to address the requirements to convene a Control Review Board, who will
         participate, and how long the board will remain active. Corrective action was completed
         on November 2, 2011.

   4-1. 	EPA agreed to update and utilize the audit tracking system, MATS, to ensure
         compliance with EPA Manual 2750. Corrective action was completed on May 1, 2010.




12-P-0360                                                                                     37
Report Title: 	      EPA Can Improve Its Preparation and Use of Independent Government
                     Cost Estimates for Superfund Contracts
Report Number: 	 10-P-0065
Date Issued: 	       February 16, 2010
Final Action Date: 	 July 7, 2011
Link: 	              http://www.epa.gov/oig/reports/2010/20100216-10-P-0065.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Require OAM to update its IGCE guide to address:

           Technical direction documents that exceed the simplified acquisition threshold
           Emergency acquisitions
           The U.S. Government Accountability Office Cost Estimating and Assessment Guide

   2-2. 	After the OAM IGCE guide is updated, require EPA regions and program operating
         divisions to conduct a review to verify compliance with the updated guide.

   2-3. 	Eliminate the practice of accepting contractor estimates that differ from IGCEs without
         examining the reason for the difference.

   2-4. 	Require the Superfund program to update, distribute, and maintain its supplemental
         tools and guidance used for IGCE preparation (e.g., the Office of Superfund
         Remediation and Technology Innovation’s cost estimating toolbox).

   2-5. 	Instruct OAM and the Superfund program office to provide training to Superfund
         program staff on IGCE tools and databases, as well as OAM and Superfund IGCE
         guidance.

 Corrective Actions

   2-1. 	EPA agreed to update the guide and it will contain a broad overview for preparing a
         sufficient IGCE and specific guidance for preparing an IGCE for an emergency
         acquisition or a technical direction document. Additionally, the guide will contain
         information on cost estimating techniques. Corrective action was completed on June 15,
         2010.

   2-2. 	EPA agreed that the updated guidance will recommend that EPA regions and program
         operating divisions should conduct a review and develop and/or update existing
         guidance in accordance with OAM’s updated guide. Corrective action was completed
         on June 30, 2010.




12-P-0360                                                                                     38
   2-3. 	EPA agreed to update the guidance and provide training to effectively address accepting
         contractor estimates that differ from IGCEs without examining the reason for the
         difference. Corrective action was completed on July 15, 2010.

   2-4. 	EPA agreed to update, distribute, and maintain its supplemental tools and guidance used
         for IGCE preparation. Corrective action was completed on April 29, 2011.

   2-5. 	EPA agreed to provide training to Superfund program staff on IGCE tools and
         databases, as well as IGCE guidance. Corrective action was completed on July 15,
         2010.




12-P-0360                                                                                    39
Report Title:         EPA Does Not Always Receive Adjustment Vouchers from Contractors
Report Number:        10-P-0075
Date Issued:          March 8, 2010
Final Action Date:    April 1, 2010
Link:                 http://www.epa.gov/oig/reports/2010/20100308-10-P-0075.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Track receipt of adjustment vouchers and monies owed EPA for final negotiated 

         indirect cost rates in accordance with OMB Circular A-50. 


   2-2. 	Identify all final indirect cost rate agreements where adjustment vouchers have not been
         submitted and track them to ensure receipt.

   2-3. 	Require Financial Administrative COs to identify all contracts impacted and list those
         contracts in the final indirect cost rate agreements.

   2-4. 	Require Financial Administrative COs to provide the final indirect cost rate agreement
         directly to the COs for contracts impacted by the agreement.

   2-5. 	Increase COs’ and POs’ awareness of their responsibilities for processing and managing
         indirect cost rate agreements and adjustment vouchers through discussions and
         presentations at meetings and conferences on contract management, as well as through
         articles in OAM’s quarterly newsletter on current policy initiatives.

 Corrective Actions

   2-1. 	EPA agreed to establish a process to ensure that adjustment vouchers and monies owed
         to EPA are tracked. Corrective action was completed on February 1, 2010.

   2-2. 	EPA agreed that COs should review all final indirect cost rate agreements and
         determine which vouchers have not been submitted and track them to ensure receipt.
         EPA also agreed to include an article in Hot Tips to raise awareness for enhanced CO
         oversight. Corrective action was completed on March 31, 2010.

   2-3. 	EPA agreed that the Financial Administrative COs will list the prime contracts in the
         indirect cost rate agreements and establish indirect rates which will apply to all of the
         prime contracts and subcontracts which the vendor holds with EPA. Corrective action
         was completed on March 31, 2010.

   2-4. 	EPA agreed that Financial Administrative COs will be required to distribute negotiated
         indirect cost rate agreements to all affected Service Center managers and Regional CO
         Supervisors. Corrective action was completed on March 31, 2010.


12-P-0360                                                                                            40
   2-5. 	EPA discussed responsibilities for processing and managing indirect cost rate
         agreements and adjustment vouchers at the Spring 2010 Contractor Forum and the
         annual PO/CO and Acquisition conference. EPA also agreed to include information
         with respect to this topic in the Hot Tips article. Corrective action was completed on
         March 31, 2010.




12-P-0360                                                                                         41
Report Title: 	      EPA Should Improve Its Contractor Performance Evaluation Process for
                     Contractors Receiving Recovery Act Funds
Report Number: 	 10-R-0113
Date Issued: 	       April 26, 2010
Final Action Date: 	 June 10, 2010
Link: 	              http://www.epa.gov/oig/reports/2010/20100426-10-R-0113.pdf

 Recommendations

We recommended that EPA:

   2-1. 	In accordance with OMB’s directive, institute a process that would provide
         management with information to monitor the timeliness and quality of contractor
         performance evaluations.

   2-2. 	Revise its Quality Assurance Plan requirements to include the timeliness and oversight
         of contractor performance evaluations.

   3-1. 	Maintain FMRs, Defense Contract Audit Agency, and OIG reports in an electronic
         system that COs can access.

   3-2. 	Require COs to access the centrally available OAM database for all applicable reports
         and consider results in annual contractor performance evaluations.

 Corrective Actions

   2-1. 	EPA agreed to begin using the Department of Defense’s Contractor Performance
         Assessment Reporting System, in lieu of the National Institute of Health’s Contractor
         Performance System. Corrective action was completed on May 1, 2010.

   2-2. 	EPA agreed to revise the Acquisition Handbook, Chapter 4.2, Quality Assessment
         Plans, to include contractor Past Performance Evaluation Reviews as an oversight
         activity. Corrective action was completed on April 1, 2010.

   3-1. 	EPA agreed to consolidate the reports on a shared server for access. Corrective action
         was completed on June 1, 2010.

   3-2. 	EPA agreed to post a Hot Tips article on the Intranet encouraging all COs to use
         information available from all reports, and to consider the results in the annual
         contractor performance evaluations. Corrective action was completed on June 1, 2010.




12-P-0360                                                                                         42
Report Title: 	      EPA’s Terms and Conditions as Well as Process to Award Recovery Act
                     Interagency Agreements Need Improvement
Report Number: 	 11-R-0016
Date Issued: 	       November 16, 2010
Final Action Date: 	 November 3, 2011
Link: 	              http://www.epa.gov/oig/reports/2011/20101116-11-R-0016.pdf

 Recommendations

We recommended that EPA:

   2-1. 	Revise standard terms and conditions for future IAs with USACE to include EPA’s roles
         and responsibilities and amend Recovery Act IAs with the USACE as they are modified.

   2-2. 	Amend the terms and conditions in Recovery Act IAs with Indian Health Services to
         include EPA’s roles and responsibilities in the areas of design and planning,
         construction monitoring, and final project inspection.

   2-3. 	Revise standard terms and conditions for future IAs with Indian Health Services to
         include EPA’s roles and responsibilities in the areas of design and planning,
         construction monitoring, and final project inspection.

   3-1. 	Prepare a program evaluation of levels of effort and the cost of the processes associated
         with procurement, management, and oversight of the construction contract for projects
         delivered by USACE, EPA, or remedial action contractors to support decision making
         in selecting the method of obtaining construction delivery services.

   3-2. 	Use this program evaluation to provide transparency and aid in developing a contracting
         strategy that will allow the EPA regional offices to make informed decisions when
         determining the best value for delivering Superfund construction projects.

 Corrective Actions

   2-1. 	EPA revised the standard terms and conditions for IAs with USACE to include EPA’s
         roles and responsibilities. Corrective action was completed on November 19, 2011.

   2-2. According to the Agency’s response to the audit report and the OIG’s comments, EPA
    & updated the terms and conditions for modified Recovery Act IAs. Corrective action was
   2-3. completed on October 28, 2010.

   3-1. 	EPA agreed to conduct a program evaluation and have the regions participate in the
         evaluation. Corrective action was completed on June 24, 2011.

   3-2. 	After completing the program evaluation (see 3-1 above), EPA stated it would use the
         findings to develop a contracting strategy by October 31, 2011. Corrective action was
         completed on September 30, 2011.

12-P-0360                                                                                        43
Report Title: 	      EPA Can Improve the Use of Financial Monitoring Reviews for
                     Recovery Act Superfund Contracts
Report Number: 	 11-R-0081
Date Issued: 	       January 31, 2011
Final Action Date: 	 October 22, 2010
Link:	               http://www.epa.gov/oig/reports/2011/20110131-11-R-0081.pdf

 Recommendation

We recommended that EPA:

   3-1. Revise policies and procedures to ensure that FMR reports are distributed timely to all
        POs, work assignments managers, and task order managers assigned to the contract
        impacted by the FMR as well as those working on other active contracts with the same
        contractor.

 Corrective Actions

   3-1. EPA updated its internal Financial Analysis and Oversight Standard Operating
        Procedures to require FMR reports to be distributed to cognizant COs and POs. The
        COs and POs are to further disseminate the report(s) to all parties associated with the
        contract, including delivery order POs, task order POs, and work assignment managers.
        Corrective action was completed on October 22, 2010.




12-P-0360                                                                                     44
Report Title: 	      EPA Needs to Reexamine How It Defines Its Payment Recapture
                     Audit Program
Report Number: 	 11-P-0362
Date Issued: 	       July 19, 2011
Final Action Date: 	 Ongoing
Link:	               http://www.epa.gov/oig/reports/2011/20110719-11-P-0362.pdf

 Recommendation

We recommended that EPA:

   1.	 Report the results of all activities, including audits the OIG and other audit organizations
       conduct, when reporting on its payment recapture audit program in 2011.

 Corrective Actions

   1.	 EPA agreed to report in the Agency Financial Report Defense Contract Audit Agency
       audit efforts that result in amounts over and under billed by the contractor; all questioned
       costs determined to be improper payments that are identified during all post-award grant
       reviews, including state and local governments, tribes, and universities; and questioned
       costs determined to be improper payments that are identified through OIG audits and
       state Single Audit reports. Corrective action is ongoing and expected to be completed on
       November 15, 2012.




12-P-0360                                                                                        45
Report Title: 	      Agreed-Upon Procedures Applied to Equipment Rate Proposals
                     Submitted Under EPA Contract EP-S9-11-01 by SFS Chemical Safety,
                     Inc., Emeryville, California
Report Number: 	 12-4-0295
Date Issued: 	       February 27, 2012
Final Action Date: 	 N/A
Link:	               Due to confidential business information, this report was not made public

 Recommendations

We recommended that EPA:

   1. 	 Not utilize the equipment rates proposed by the contractor for billings or for negotiating
        option period prices.

   2. 	 Disallow and recover unallowable equipment costs of $30,123 claimed under the base
        period of the contract.

   3. 	 Modify the contract to reduce the option period 1 firm fixed price by the excess 

        equipment costs of $42,911. 


 Corrective Actions

   The recommendations were provided to the CO and the CO’s decision is pending.




12-P-0360                                                                                        46
Report Title:        EPA Can Improve Its Improper Payments Reporting
Report Number:       12-P-0311
Date Issued:         March 1, 2012
Final Action Date:   N/A
Link:                http://epa.gov/oig/reports/2012/20120301-12-P-0311.pdf

 Recommendations

We recommended that EPA:

   1. 	 Issue guidance requiring that the results of all grant improper payment determinations
        and recaptures be documented in the compliance database and reported in the FY 2012
        Agency Financial Report.

   2. 	 Continue to track in MATS the recommendation in OIG Report No. 11-P-0362—to
        include in the Agency Financial Report all improper payments identified through EPA
        reviews and OIG financial and single audits—until the corrective actions are completed.

   3. 	 Report discounts not taken as improper payments under the Improper Payments
        Elimination and Recovery Act, starting with the FY 2012 Agency Financial Report,
        unless clarification from OMB states otherwise.

   4. 	 Issue guidance to program offices to ensure the quality of reported improper payment and
        recaptured payment information.

 Corrective Actions

   1. 	 EPA prepared draft guidance and is in the process of completing additional refinements
        to the draft guidance for appropriate Agency review and final issuance. Corrective action
        is ongoing and expected to be completed on April 30, 2012.

   2. 	 EPA re-opened corrective actions 1.2 and 1.3 from OIG Report No. 11-P-0362.
        Recommendations will remain open until the corrective actions are completed. Corrective
        action is ongoing and expected to be completed on November 15, 2012.

   3. 	 EPA respectfully disagreed with this recommendation and stated that the OIG’s
        interpretation of improper payments for discounts is overly broad. The recommendation
        is unresolved with resolution efforts in progress.

   4. 	 EPA stated it will issue FY 2012 annual guidance to the Office of Administration and
        Resources Management, the Office of Water, and the Research Triangle Park–Finance
        Center. Corrective action was not verified and, therefore, it is considered pending.




12-P-0360                                                                                        47
Report Title: 	      Policies Needed for Proper Use and Management of Cost-Reimbursement
                     Contracts Based on Duncan Hunter Act
Report Number: 	 12-P-0320
Date Issued: 	       March 6, 2012
Final Action Date: 	 N/A
Link: 	              http://www.epa.gov/oig/reports/2012/20120306-12-P-0320.pdf

 Recommendations

We recommended that EPA:

   1. 	 Develop a policy for COs that provides guidance on preparing written acquisition plans
        that comply with the FAR revisions resulting from the interim rule (FAR Case
        2008-030).

   2. 	 Update the procurement initiation notice as contained in the CMM to include, as an
        attachment, a copy of the Contracting Officer Representative appointment memorandum.

   3. 	 Direct COs to verify that nomination forms and appointment memorandums are included
        in contracting files for all current contracts.

   4. 	 Develop and distribute instructions on coding of Indefinite Delivery/Indefinite Quantity
        contracts. EPA should ensure that the four contracts identified in this finding are coded
        consistent with the instructions.

 Corrective Actions

   1. 	 EPA agreed with the recommendation and stated that it would issue an Interim Policy
        Notice updating the references to the CMM for acquisition planning. EPA would also
        update the Peer Review Checklist to reflect changes made to the FAR. Corrective action
        is ongoing and expected to be completed on March 31, 2012.

   2. 	 EPA stated it will publish an Interim Policy Notice requiring program and technical staff
        to nominate prospective Contracting Officer Representatives in EPA’s Acquisition
        System’s requisition documents. Corrective action is ongoing and expected to be
        completed on September 30, 2012.

   3. 	 EPA stated it will require the nomination form of the Contracting Officer Representative
        to be included in the official contract file in accordance with FAR 4.803(a)(33).
        Corrective action is ongoing and expected to be completed on September 30, 2012.

   4. 	 EPA stated it will publish a flash policy notice advising staff that Indefinite Delivery/
        Indefinite Quantity contracts should be coded in the Federal Procurement Data System in
        accordance with the Federal Procurement Data System’s User’s Manual dated April
        2011. Corrective action is ongoing and expected to be completed on March 31, 2012.


12-P-0360                                                                                        48
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Administration and Resources Management




12-P-0360                                                                           49
